           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     UNIVERSITIES’ USE OF SOCIAL
    SECURITY NUMBERS AS STUDENT
       IDENTIFIERS IN REGION IX


    November 2005   A-09-05-15099




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                             SOCIAL SECURITY
MEMORANDUM

Date:   November 30, 2005                                                                           Refer To:

To:     Peter D. Spencer
        Regional Commissioner
         San Francisco

From:   Inspector General

Subject: Universities’ Use of Social Security Numbers as Student Identifiers in Region IX
        (A-09-05-15099)


        OBJECTIVE
        Our objective was to assess universities’ use of Social Security numbers (SSN) as
        student identifiers and the potential risks associated with such use.

        BACKGROUND
        Millions of students enroll in educational institutions each year. To assist in this
        process, many colleges and universities use students’ SSNs as personal identifiers.
        The American Association of Collegiate Registrars and Admissions Officers found that
        almost half of member institutions that responded to a 2002 survey used SSNs as the
        primary student identifier.1 Although no single Federal law regulates overall use and
        disclosure of SSNs by colleges and universities, the Privacy Act of 1974, the Family
        Educational Rights and Privacy Act, and the Social Security Act, contain provisions
        that govern disclosure and use of SSNs. See Appendix A for more information on the
        specific provisions of these laws.

        We selected two universities2 from each State in Region IX.3 For each university
        selected, we interviewed university personnel and reviewed school policies and
        practices for using SSNs. See Appendices B and C for additional details regarding the
        scope and methodology of our review and a list of universities we contacted,


        1
         Academic Transcripts and Records: Survey of Current Practices, April 2002 Special Report, the
        American Association of Collegiate Registrars and Admissions Officers.
        2
            In this report, we use the term “universities” to refer to colleges and universities.
        3
            Region IX consists of the following four States: Arizona, California, Hawaii, and Nevada.
Page 2 – Peter D. Spencer

respectively. We are conducting a review in each of the Social Security Administration’s
(SSA) 10 regions and will issue separate reports to each Regional Commissioner.

RESULTS OF REVIEW
Based on our interviews with university personnel and reviews of school policies
and practices, we are concerned about universities’ use of SSNs. We identified a
number of instances in which universities used SSNs as student identifiers or for other
purposes. Based on prior audit and investigative work, we found that unnecessary
use of SSNs increases the potential for unscrupulous individuals to illegitimately gain
access to these numbers and misuse them, thus creating SSN integrity issues. Many
university personnel with whom we spoke shared our concerns and have taken steps
to reduce SSN use.

UNIVERSITIES’ USE OF SSNs

Despite the increasing threat of identity theft, universities continued to use SSNs for
a variety of purposes. We found that many universities collected students’ SSNs for
financial aid and tax reporting purposes. However, some universities also used the
SSN for class registration, transcript requests, building access, electronic payment, and
computer log-in.4 Other universities displayed SSNs on student identification cards,
reply cards, and written examinations. This occurred, in part, because the SSN was
used as the primary student identifier. Such use is unnecessary and increases the
potential for fraud and abuse. Specifically, we found:

•   Three universities used the SSN for access control or electronic payment. Students
    were assigned a magnetic stripe card (that is, swipe card) that contained their
    SSN to enter designated areas (such as laboratories or gymnasiums) or initiate
    transactions (such as making photocopies, checking out books, placing telephone
    calls, or purchasing meals and snacks).

•   Three universities accepted students’ SSNs for class registration and transcript
    requests. Students were allowed to register for classes and request official
    transcripts in paper and/or electronic format.

•   Two universities printed the SSN on the student identification cards. In both
    instances, the SSN was used as the primary student identifier.5 At one university,
    the entire SSN was printed on the front of the student identification card. At the
    other university, the last six digits of the SSN were printed.



4
  A computer log-in is used to establish communication and initiate interaction with a time-shared
computer or network.
5
  At the time of our review, these universities were issuing alternate identification numbers to their
students.
Page 3 – Peter D. Spencer

•    Two universities accepted students’ SSNs to access computer systems. One
     university required the SSN to log onto computers, while it was optional at the
     other university. Since the SSN may be displayed, in whole or in part, on the
     computer monitor, the risk of disclosure to unauthorized individuals is increased.

•    One university requested that prospective students provide their SSNs on reply
     cards used to schedule campus tours or informational meetings. These cards
     requested that students provide their name, address, telephone number, and other
     personal information, including SSN. The university plans to revise the reply cards
     to exclude the SSN.

•    One university required that students record their SSNs on written examinations that
     were graded electronically. In such instances, students entered their SSN, which
     was used as the primary student identifier,6 onto Scantron sheets or Optical Mark
     Read forms (that is, machine-readable forms).

UNIVERSITIES AND STATES HAVE TAKEN STEPS TO LIMIT SSN USE

Some universities and States have taken steps to limit SSN use. Of the eight
universities selected for review, we found that two still used the SSN as the primary
student identifier. However, both universities were assigning their students
alternate identification numbers. Another university did not assign specific identification
numbers but, in some instances, used the SSN to distinguish between the records of
students with the same name. In addition, five universities did not use the SSN as the
primary student identifier. Nevertheless, one of these universities allowed its students
to use the SSN in lieu of their assigned identification number. Specifically, we found:

•    One university used the SSN as the primary student identifier for about 69 percent of
     its students as of April 2005. The university started issuing alternate identification
     numbers to new students in January 2005. However, for students who were
     enrolled before this date, the university still used the SSN as the primary identifier
     unless the student had requested an alternate number. The university plans to issue
     alternate identification numbers to all students by December 2005.

•    Another university used the SSN as the primary student identifier for all students as
     of February 2005. However, at the time of our review, the university had initiated
     actions to modify its computer system and issue alternate identification numbers to
     current and prior students. University personnel stated these systems modifications
     were implemented in August 2005. As a result, the university has discontinued the
     use of the SSN as the primary student identifier.




6
    See id.
Page 4 – Peter D. Spencer

•     One university assigned unique identification numbers to all students but, as
      an alternative, allowed these students to use their SSN as an identifier. As a
      result, students could use their SSN (in lieu of their assigned nine-digit number) for
      identification purposes and to obtain goods and services. The university allowed
      students to use their SSN as an optional identifier because it was easier to
      remember than the assigned identification number.

In addition, both California and Arizona have enacted laws that restrict the use and
disclosure of SSNs. California passed legislation that prohibits (1) publicly posting
or displaying an SSN; (2) printing an SSN on any card required to access products or
services; (3) requiring that an individual transmit his or her SSN over the Internet unless
the connection is secure or the SSN is encrypted; (4) requiring that an individual use
his or her SSN to access an Internet website, unless a password or unique personal
identification number or other authentication device is also required; and (5) printing an
SSN on any item mailed to an individual unless State or Federal law requires that the
SSN be on the mailed document.7

Arizona passed legislation that prohibits those universities under the jurisdiction of the
Arizona Board of Regents from assigning an identification number to faculty, staff, or
students at a university that is identical to the individual’s SSN. The law also prohibits
the display of the SSN (or any four or more consecutive numbers of the SSN) on any
Internet site maintained by the university or other publicly accessible document.8

Arizona also passed legislation that prohibits certain disclosures of SSNs to the public
and the printing of SSNs on any card required for the individual to receive products or
services. The law also establishes technical protection requirements for the on-line
transmission of SSNs. In addition, the law prohibits, in certain circumstances, the
printing of SSNs on mailed materials to residents of Arizona unless required by State
or Federal law.9

Based on our interviews with university personnel, we found the two universities in
California had complied with the applicable State laws to limit the use of SSNs as
identifiers. However, one of the two universities in Arizona had not complied with the
applicable State law that prohibits universities from assigning an identification number
identical to the SSN and displaying any four or more numbers of the SSN.10 We found
the university had continued to use and display the SSN as a student identifier at the



7
  California Civil Code §§ 1798.85 and 1798.86. The restrictive provisions, in certain situations, do not
become effective until January 1, 2006 or thereafter.
8
     Arizona Revised Statutes § 15-1823.
9
  Arizona Revised Statutes § 44-1373. The restrictive provisions, in certain situations, allow individuals
and entities to continue their use of SSNs, if such use began prior to January 1, 2005.
10
     Arizona Revised Statutes § 15-1823. This provision of the law became effective on June 30, 2002.
Page 5 – Peter D. Spencer

time of our review. To comply with the law, the university started issuing alternate
identification numbers in January 2005 and plans to complete the process by
December 2005.

POTENTIAL RISKS ASSOCIATED WITH COLLECTING AND USING SSNs

Universities’ collection and use of SSNs entail certain risks, including potential identity
theft and fraud. Each time an individual discloses his or her SSN, the potential for a
thief to illegitimately gain access to bank accounts, credit cards, driving records, tax and
employment histories, and other private information increases. Of the eight universities
selected for review, there were incidences of potential SSN misuse at two universities.
Because some universities still use the SSN as an identifier, students’ exposure to
identity theft and fraud remains. We believe the following examples illustrate students’
risk of exposure to such activity.

•   A student employee at a Nevada university had access to students’ personal
    information, including names, addresses, and SSNs. The student employee
    allegedly obtained credit card numbers and fictitious application fees from
    prospective students, which were used to pay for the student employee’s college
    expenses. University personnel were unaware of any SSN misuse. The student
    employee was expelled from the university.

•   In California, a computer hacker gained access to one of the university’s computer
    systems that contained the names, addresses, telephone numbers, birth dates, and
    SSNs of at least 600,000 individuals. The data were used by a researcher working
    at the university and had been obtained under authorization from a State agency.

•   A laptop computer owned by a California university was stolen. The computer
    files contained SSNs and other personal information for about 98,000 individuals,
    including current, former, and prospective graduate students. The files on the laptop
    were downloaded by an employee for campus research and had not been
    encrypted.

•   California authorities arrested a man suspected of stealing the names and SSNs of
    150 college students and using that information to obtain credit cards and charge
    over $200,000 in the students’ names.
Page 6 – Peter D. Spencer

CONCLUSION AND RECOMMENDATIONS
Despite the potential risks for SSN misuse and identity theft, some universities continue
using SSNs as student identifiers or for other purposes. While we recognize SSA
cannot prohibit universities from using SSNs as student identifiers, we believe SSA can
help reduce potential threats to SSN integrity by encouraging universities to limit SSN
collection and use. We also recognize the challenge of educating such a large number
of educational institutions about unnecessary SSN use. However, given the potential
threats to SSN integrity, such a challenge should not discourage SSA from taking steps
to safeguard SSNs. Accordingly, we recommend that SSA:

1. Coordinate with universities and State/regional educational associations to educate
   the university community about the potential risks associated with using SSNs.

2. Encourage universities to limit their collection and use of SSNs.

3. Promote the best practices of educational institutions that no longer use SSNs as
   student identifiers.

AGENCY COMMENTS
SSA agreed with all of our recommendations. See Appendix D for the text of SSA’s
comments.




                                                S
                                                Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Federal Laws that Govern Disclosure and Use of the Social Security
             Number

APPENDIX B – Scope and Methodology

APPENDIX C – Educational Institutions Contacted

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                                                    Appendix A
Federal Laws that Govern Disclosure and Use
of the Social Security Number

The following Federal laws establish a general framework for disclosing and using the
Social Security number (SSN).

The Privacy Act of 1974 (5 U.S.C. § 552a; Pub. L. No. 93-579, §§ 7(a) and 7(b))

The Privacy Act of 1974 provides that it is unlawful for a State government agency to
deny any person a right, benefit, or privilege provided by law based on the individual’s
refusal to disclose his/her SSN, unless such disclosure was required to verify the
individual’s identity under a statute or regulation in effect before January 1, 1975.
Further, under Section 7(b), a State agency requesting that an individual disclose
his/her SSN must inform the individual whether the disclosure is voluntary or
mandatory, by what statutory or other authority the SSN is solicited and what uses
will be made of the SSN.

The Family Educational Rights and Privacy Act (20 U.S.C. § 1232g; 34 C.F.R. Part 99)

The Family Educational Rights and Privacy Act (FERPA) protects the privacy of student
education records. FERPA applies to those schools that receive funds under an
applicable program of the U.S. Department of Education. Under FERPA, an
educational institution must have written permission from the parent or eligible student
to release any personally identifiable information (which includes SSNs) from a
student’s education record.1 FERPA does, however, provide certain exceptions in
which a school is allowed to disclose records without consent. These exceptions
include disclosure without consent to university personnel internally who have a
legitimate educational interest in the information, to officials of institutions where the
student is seeking to enroll/transfer, to parties to whom the student is applying for
financial aid, to the parent of a dependent student, to appropriate parties in compliance
with a judicial order or lawfully issued subpoena, or in the event of a health or safety
emergency.




1
   FERPA gives parents certain rights with respect to their children’s education records. These rights
transfer to the child when the child reaches age 18 or attends an institution of postsecondary education.
Children that have been transferred rights are referred to as “eligible students.”

                                                   A-1
The Social Security Act

The Social Security Act provides that “[s]ocial security account numbers and related
records that are obtained or maintained by authorized persons pursuant to any
provision of law, enacted on or after October 1, 1990, shall be confidential, and no
authorized person shall disclose any such Social Security account number or related
record.” (42 U.S.C. § 405(c)(2)(C)(viii)). The Social Security Act also provides that
“[w]hoever discloses, uses, or compels the disclosure of the Social Security number of
any person in violation of the laws of the United States; shall be guilty of a felony…”
(42 U.S.C. § 408(a)(8)).




                                           A-2
                                                                        Appendix B

Scope and Methodology
To accomplish our objective, we:

•   interviewed selected university personnel responsible for student
    admissions/registrations;

•   reviewed Internet websites of eight colleges and universities we contacted;

•   reviewed applicable laws and regulations; and

•   reviewed selected studies, articles, and reports regarding universities’ use of Social
    Security numbers (SSN) as student identifiers.

We visited five educational institutions and interviewed personnel at three others to
learn more about their policies and practices for using SSNs as student identifiers.
Our review of internal controls was limited to gaining an understanding of universities’
policies over the collection, protection and use or disclosure of SSNs. The Social
Security Administration entity reviewed was the Office of the Deputy Commissioner
for Operations. We conducted our audit from February through August 2005 in
accordance with generally accepted government auditing standards.
                                                                          Appendix C

Educational Institutions Contacted
We interviewed personnel at eight educational institutions in Region IX. The following
table shows the names and locations of these schools as well as their approximate
student enrollments.

                                                                             Student
                        School                         Location             Enrollment

   1     Arizona State University             Tempe, Arizona                  58,156

   2     University of California, Berkeley   Berkeley, California            31,676

   3     San Francisco State University       San Francisco, California       28,804

   4     University of Nevada, Las Vegas      Las Vegas, Nevada               27,000

   5     Hawaii Pacific University            Honolulu, Hawaii                9,000

   6     Chaminade University                 Honolulu, Hawaii                2,800

   7     Prescott College                     Prescott, Arizona               1,036

   8     University of Southern Nevada        Henderson, Nevada                 300

Source: We determined student enrollment by reviewing university websites.
                  Appendix D

Agency Comments
                                                                      Appendix E
OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, (510) 970-1739

   Jack H. Trudel, Audit Manager, (510) 970-1733

Acknowledgments

In addition to those named above:

   Regina Finley, Auditor-in-Charge

   James Sippel, Senior Auditor

   Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-09-05-15099.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
